Audit of NSF’s Workforce Management:
        Rotating Director Model



       National Science Foundation
       Office of Inspector General



             March 30, 2010
              OIG 10-2-009
        National Science Foundation   •   4201 Wilson Boulevard      •   Arlington, Virginia 22230
                                   Office of the Inspector General


MEMORANDUM


DATE:                 March 30, 2010


TO:                   Dr. Cora B. Marrett
                      Acting Deputy Director, National Science Foundation

FROM:                 James Noeth /s/
                      Acting Associate Inspector General for Audit

SUBJECT:              Audit of NSF’s Workforce Management: Rotating Director Model, Report
                      Number 10-2-009


Attached please find the final report of our audit of NSF’s rotating director model. We have
included NSF’s response as an appendix to the final report.


OMB Circular A-50 requires NSF to prepare a time-phased corrective action plan to address the
report recommendations. Please furnish our office with a copy of this corrective action plan no
later than May 31, 2010.


We appreciate the courtesies and assistance provided by so many NSF staff during the audit. If
you have any questions, please contact Karen Scott, Senior Audit Manager, at (703) 292-7966.

Attachment

cc:    Allison Lerner
       Anthony Arnolie
       Judith Sunley
       Deborah Crawford
       James Lightbourne
       Joseph Burt
       Pam Hammett
       Karen Scott
       Susan Carnohan
       Kelly Stefanko
       Gina Zdanowicz
Executive Summary

To maintain a world-class scientific workforce, the National Science Foundation
(NSF) supplements its permanent, career employees with a variety of non-
permanent staff. All of the non-permanent appointments are federal employees,
except for Intergovernmental Personnel Act (IPA) assignments, who remain
employees of their home institution. At the time of our audit, “rotating directors”,
in the form of IPA assignees, filled over a quarter of NSF’s executive-level,
science positions.

The Senate Committee Report accompanying NSF’s 2010 appropriations bill
expressed “deep concern” with systemic workforce management issues at NSF.
While noting the benefits of NSF’s rotational director model in bringing the
agency fresh scientific insight and perspective, the report also cited its potential
for creating gaps in management oversight.

Purpose

The Senate Committee Report accompanying NSF’s 2010 appropriations bill
requested that the OIG provide a report assessing NSF’s rotating director model.
Accordingly, the objective of this audit was to determine if NSF has a rotator
model in place that ensures effective personnel-management performance and
oversight at its executive level.

Results in Brief

Based on our limited assessment, we found that NSF generally has the
components of an effective personnel management system and followed Office
of Personnel Management and government-wide requirements. Nothing came to
our attention to indicate that NSF’s personnel management system was
ineffective. With the exception of performance management, NSF applied the
components of effective personnel management to both its permanent and
temporary staff and IPAs in the same manner.

However, differences exist in NSF’s management of various appointments at the
executive level.     Specifically, NSF does not include IPAs in its formal
performance management system even though they function in the same
capacities as NSF’s federal executives. Additionally, we noted that IPAs may not
have prior working knowledge of the federal government culture or of federal
government management processes because they are rotating into NSF from
universities and other institutions.

As a result, NSF’s rotating director model presents challenges to effective
personnel-management performance and oversight. Because IPAs do not have
a written record of performance, NSF risks not holding them accountable, as it


                                         i
does its federal employees, in accomplishing NSF’s mission and goals. Also, the
fact that IPAs do not always have prior knowledge of, or experience with, the
federal workplace culture or federal government management processes gives
them a steep learning curve when they arrive at NSF.

NSF takes some steps to mitigate these risks; however, NSF could do more to
address the challenges associated with the rotating director model. NSF should
require that IPAs, at all levels, be included in the performance management
system, in an appropriate manner. In addition, NSF should ensure that it is
capable of effectively preparing and integrating its rotating executives into the
federal government workplace.

Recommendations

NSF recognizes the challenges to effective personnel management involved in
having a rotating workforce and is committed to improving its human capital
management. We recommend that the NSF Director:

   1.   Create and document a performance management process appropriate
        for IPAs. Such a process does not have to be the same as the process for
        federal employees but should include:
            o establishing a formal performance assessment policy and practice
               that requires annual performance assessments for IPAs and some
               form of documentation that the assessments occurred;
            o developing IPA performance standards for both program-level and
               executive-level IPAs;
            o ensuring that each new IPA agreement includes an attached set of
               performance standards;
            o ensuring that supervisors of IPAs understand their responsibility to
               conduct annual appraisal discussions with all IPA assignees; and
            o ensuring that each new IPA agreement contains sufficient detail to
               convey expectations of the position.

   2.   Ensure that NSF continues its efforts to implement an appropriate process
        for integrating new executives into the agency sufficient to orient IPAs with
        unfamiliar management processes.

Agency Response

NSF agreed with our recommendations and in its response, indicated that it has
already taken steps towards developing and implementing a performance
management process for all IPAs similar to that for federal employees.




                                          ii
Table of Contents

Executive Summary                                                          i

Introduction                                                               1

Results of Audit                                                          7

NSF Generally has the Components of an Effective
Personnel Management System                                               10

NSF Does Not Include Rotating Executives in its
Performance Management System                                             11

Rotating Executives Generally Do Not Have a Working
Knowledge of Federal Government Culture and
Management Processes                                                      13

Recommendations                                                           14

Agency Response                                                           15

OIG Contact and Staff Acknowledgements                                    15

Appendices

    Appendix A: Agency Response                                           16

    Appendix B: Objective, Scope, and Methodology                         17

    Appendix C: Illustration of NSF’s Executive-Level Science Workforce   19

    Appendix D: Assessments of NSF’s Use of Rotators                      20

    Appendix E: Personnel Management Scholarship                          22




                                     iii
Introduction

The Senate Committee Report accompanying the National Science Foundation’s
(NSF) 2010 appropriations bill1 expressed “deep concern” with systemic
workforce management issues at NSF. The report stated that “compounding the
issue is the rotational director model, which although [it] brings fresh scientific
insight and perspective to the agency, creates gaps in management oversight.”
Accordingly, the report requested that the NSF OIG provide an assessment of
NSF’s rotating director model.


Mission of the National Science Foundation

The National Science Foundation is an independent federal agency whose
mission is “to promote the progress of science; to advance the national health,
prosperity, and welfare; and to secure the national defense.” To support this
mission, NSF funds approximately 20 percent of all federally-supported basic
research conducted at the nation’s colleges and universities, primarily through
grants and cooperative agreements. To accomplish this mission, NSF seeks to
maintain a world-class staff of scientists, engineers, and educators who bring
current knowledge, insight, and cutting-edge perspectives to the scientific and
engineering research and education funded by NSF.


NSF’s Organizational Structure

NSF is headed by a Director and Deputy Director who are appointed by the
President. The Director serves a six-year term, and the Deputy Director serves
at the pleasure of the President.

NSF is divided into seven directorates that support science and engineering
research and education: Biological Sciences (BIO), Computer and Information
Science and Engineering (CISE), Engineering (ENG), Geosciences (GEO),
Mathematics and Physical Sciences (MPS), Social, Behavioral and Economic
Sciences (SBE), and Education and Human Resources (EHR). Each directorate
is headed by an executive level Assistant Director and Deputy Assistant Director
or equivalent, and a primary responsibility of the Assistant Directors is to provide
leadership and direction to their respective directorates. Assistant Directors are
also responsible for planning and implementing programs, priorities, and policy
within the framework of statutory and National Science Board authority.

Each directorate consists of a number of divisions, which are headed by a
Division Director, and most are supported by a Deputy Division Director or
equivalent. A primary responsibility of Division Directors is to provide leadership
1
 Senate Committee on Appropriations Report accompanying the Departments of Commerce and
Justice, and Science, and Related Agencies Appropriations Bill, 2010.
                                           1
and guidance to division scientific, technical, and administrative staff. Division
Directors also determine funding requirements, prepare and justify budget
estimates, balance program needs, allocate resources, oversee the evaluation of
proposals, make recommendations for awards and declinations, and represent
NSF to relevant external groups.

Four science offices within NSF's Office of the Director also directly support
research: the Office of Polar Programs (OPP), the Office of Integrative Activities
(OIA), the Office of International Science and Engineering (OISE), and the Office
of Cyberinfrastructure (OCI). Each science office is headed by an Office
Director. Other offices within the Office of the Director support business
operations, such as information and resource management, legal affairs, and
financial management.


NSF’s Use of Non-Permanent Staff

To maintain a world-class scientific workforce, NSF relies on authority provided in
the National Science Foundation Act of 1950 (the Act). Specifically, the Act gives
the NSF Director the authority to, “in accordance with such policies as the Board
chooses to prescribe, appoint for a limited term or on a temporary basis,
scientists, engineers, and other technical and professional personnel on leave of
absence from academic, industrial, or research institutions.” With this authority,
NSF supplements its permanent, career employees with a variety of non-
permanent staff such as temporary (limited term), 2 intermittent (experts or
consultants), and two rotating appointment types – Visiting Scientists, Engineers,
and Educators (VSEE) and Intergovernmental Personnel Act (IPA). All of the
non-permanent appointments result in federal employees, except for IPAs, who
remain employees of their home institution.

Temporary Appointments

Temporary employees are limited-term appointments, usually for a period of up
to three years. NSF uses temporaries throughout the agency. For example, it
uses temporary appointments to bring in non-permanent executives, such as
limited-term Senior Executive Service (SES) Division Directors. In addition to the
executives, some Program Officer positions are filled through temporary
appointments. Temporary employees were seven percent of NSF’s total
workforce at the time of our audit. 3




2
  Limited-term appointments may be filled with permanent, career employees. Because the
appointment was temporary, we included those staff as non-permanent.
3
  Directorates, OPP, OCI, and OISE data as of 9/11/09, non-science offices and OIA data as of
10/23/09
                                               2
Intermittent Appointments

Intermittent appointments are another form of non-permanent appointment used
by NSF. Intermittent employees act as experts or consultants and may be
appointed for a full year; however, they cannot work more than 130 days a year.
At the time of our audit, intermittent employees comprised four percent of NSF’s
total workforce.

Rotator Program Appointments

The federal government’s Intergovernmental Personnel Act Mobility Program and
NSF’s Program for Visiting Scientists, Engineers and Educators are known as
“rotator” programs, and are NSF’s primary vehicles for employing temporary
professional scientists, engineers, and educators.

Visiting Scientists, Engineers, and Educators – VSEEs are temporary employees
appointed for a period of one year, with an option to extend the appointment for
an additional year. Because they are temporary federal employees, NSF pays
their salaries directly through its Salaries and Expenses appropriation, although
VSEEs continue to receive their benefits through their home organizations.

At the time of the audit, VSEEs made up four percent of NSF’s total workforce.
Most were Program Directors in the directorates and science offices with non-
supervisory responsibilities that include managing an effective and timely merit
review process and establishing goals and objectives for research programs.

Intergovernmental Personnel Act Appointments – At NSF, IPAs are usually
scientists, engineers, and educators on loan from their home institutions. The
Intergovernmental Personnel Act of 1970 allows the temporary assignment of
personnel between federal agencies and other governmental, academic, tribal,
and eligible non-profit organizations. The Act permits individuals to serve in a
temporary capacity for a period of up to four years. Consistent with the intent of
the Act, IPA assignments can strengthen management, assist in the transfer and
implementation of new technology, involve officials of other organizations in
developing and implementing federal policies and programs, and enhance the
professional abilities of the participants. Most IPAs return to their home
institutions following their tour of duty bringing with them their newly acquired
knowledge of how NSF functions.

While IPAs remain employees of their home institutions, they are considered
employees of the borrowing agencies for virtually all purposes including
limitations on political activities and outside earned income, and financial
disclosure and conflict of interest requirements.

At the time of our audit, IPAs were 12 percent of NSF’s total workforce and of the
229 rotators at NSF, 174, or 76 percent, were IPAs. However, it is significant to
note that IPAs are the only NSF executives that are not federal employees, and
out of a total of 75 executive-level science staff at the agency, 20 were rotating


                                        3
directors. Six IPAs were Assistant/Science Office Directors and 14 were Division
Directors. The NSF Acting Deputy Director was also an IPA. 4

Benefits of Including Rotators in NSF’s Workforce – NSF’s VSEE and IPA
programs strengthen NSF ties with the research community and provide NSF
with talent and resources that are critical to meeting its mission. These
scientists, engineers, and educators, who come to NSF on rotational
assignments from academia, industry, and other eligible organizations,
supplement NSF’s own world-class staff by bringing cutting edge and up-to-date
knowledge and experience to help the agency support an entire spectrum of
science and engineering research and education. NSF staff also noted that
rotators add value by bringing fresh ideas and management expertise to the
agency.


NSF’s Workforce

At of the time of our audit, NSF had 1,489 total staff. 5 Of those, 1,099, or 74
percent, were permanent employees. The remaining 390, or 26 percent, were
non-permanent staff. At the Assistant Director, Division Director, and Deputy
positions within the directorates and science offices, 26 out of these 75
executive-level staff were non-permanent. At the executive level, non-permanent
staff were predominant in the positions of Assistant/Science Office Director (64
percent) and Division Director (58 percent). 6

                Percentage of Permanent and Non-Permanent Staff
                       Comprising NSF’s Total Workforce

                          Permanent                       1099 74%
                          Non-permanent                   390 26%
                          NSF's Total Workforce           1489 100%




4
  For our purposes, we included Assistant/Office Directors, Executive Officers/Deputies, Division
Directors, and Division Deputies/Executive Officers in our definition of executive-level science
staff. We did not include the NSF Director, Deputy Director, or staff at the AD-5 level.
5
  Total staff does not include the Office of Inspector General or students. Further, if a person was
acting in a vacant position at the time of our audit, we counted the position as vacant, not filled.
6
  Of 11 Assistant/Science Office Directors, there were 2 permanent employees, 1 temporary
employee, 6 IPAs, and 2 vacant positions. Of the 31 Division Directors, there were 8 permanent
employees, 4 temporary employees, 14 IPAs, and 5 vacant positions.
                                                 4
                       Breakdown of Non-Permanent Staff

     NSF's Total
     Workforce         Permanent           Rotators         Temporary Intermittent
                                      IPAs      VSEEs
        1489              1099         174        55            104          57
       100.0%            73.8%       11.7%       3.7%          7.0%         3.8%

 The majority of rotators are in the directorates and science offices. Of the 229
 rotators, only 5 worked in NSF’s business offices; the remaining 224 worked in
 the directorates and sciences offices.

 As noted earlier, most VSEEs were Program Directors. IPAs, however, served in
 many of NSF’s executive positions.


       Directorate and Science Office Executives by Appointment Type

Type of Executive
     Position      Permanent          IPAs       Temporary       Vacant        Total
 Assistant/Office
     Director          2               6              1             2           11
 Deputy Assistant
Director/Executive
      Officer          8                0             0             2           10
 Division Director     8               14             4             5           31
 Deputy Division
Director/Executive
      Officer          16               0             1            6           23
       Total           34              20             6            15          75
                      45%             27%            8%           20%         100%

 IPAs filled over a quarter of NSF’s executive-level science positions. (See
 Appendix C for a detailed illustration depicting NSF’s use of IPAs in its executive-
 level science workforce at the time of our audit.) An earlier National Academy of
 Public Administration report noted that because of the limited tenure of rotators
 and the job mobility of some permanent employees, NSF experiences a great
 deal of turnover in its executive ranks. It said that a multi-year time lapse picture
 of NSF’s executive-level science workforce would “give the appearance of many
 blinking lights.”




                                            5
 Use of IPAs at Other Federal Agencies

 In order to compare how NSF uses its IPAs, we identified five other federal
 agencies that use IPAs to supplement their existing workforce, and reviewed
 their policies for the use of IPAs. These agencies are the Department of Energy
 (DOE), the National Aeronautics and Space Administration (NASA), the National
 Institutes of Health (NIH), the Environmental Protection Agency (EPA), and the
 Veterans Affairs Administration (VA). Relative to the number of permanent
 employees, NSF is a major user of IPA authority for bringing cutting-edge
 knowledge into its workforce.

                           Use of IPAs at Other Federal Agencies

     Agency         % IPA     Are IPAs       Examples of         Are IPAs included
                    out of   allowed to   positions filled by     in performance
                     total   supervise?          IPAs              management
                   workforce                                          system?
VA                   0.6%        Y      Research                         N
EPA                  0.1%        Y      Scientist, Engineer,             Y
                                        Special Assistant
DOE 7                0.7%        Y      Science/Research                Y
NIH                   1%         N      Institution Directors,          N
                                        Science/Research
NASA                 0.3%        Y      Project Manager,                N
                                        Scientist, Engineer,
                                        Educator
NSF                  12%         Y      Assistant Director,             N
                                        Division Directors

 IPAs comprised 12 percent of NSF’s workforce as compared to 1 percent or less
 of the other federal agencies reviewed. The other agencies predominantly use
 IPAs in technical research and science positions, which may be supervisory.
 However, NSF is unique in its routine use of IPAs for managerial, executive-level
 positions. Finally, while NSF, like NASA, NIH and VA, did not have performance
 management requirements for IPAs, two agencies (EPA and DOE) did require
 IPA involvement in performance management.




 7
     This applies only to DOE’s headquarters office.

                                                   6
Results of Audit

Based on our limited assessment, we found that NSF generally has the
components of an effective personnel management system and followed OPM
and government-wide requirements. Nothing came to our attention to indicate
that NSF’s personnel management system was ineffective. With the exception of
performance management, NSF applied the components of effective personnel
management to its permanent, temporary, and IPA staff in the same manner.

However, differences exist in NSF’s management of various appointment types
at the executive level. Specifically, NSF does not include IPAs in its formal
performance management system even though they function in the same
capacities as NSF’s federal executives. Additionally, we noted that IPAs may not
have prior working knowledge of the federal government culture or of federal
government management processes because they are rotating into NSF from
universities and other institutions.

As a result, NSF’s rotating director model presents challenges to effective
personnel-management performance and oversight. Because IPAs do not have
a written record of performance, NSF risks not holding them accountable, as it
does its federal employees, in accomplishing NSF’s mission and goals. Also, the
fact that IPAs do not always have prior knowledge of, or experience with, the
federal workplace culture or federal government management processes gives
them a steep learning curve when they arrive at NSF.

NSF takes some steps to mitigate these risks; however, NSF could do more to
address the challenges associated with the rotating director model. NSF should
require that IPAs, at all levels, be included in the performance management
system, in an appropriate manner. In addition, NSF should ensure that it is
capable of effectively preparing and integrating its rotating executives into the
federal government workplace.


Components of an Effective Personnel Management
System
An effective personnel management system is critical to attract, develop, and
retain quality employees from diverse backgrounds, and to help ensure staff
perform at high levels and accomplish the agency mission. The Office of
Personnel Management (OPM), the Government Accountability Office, and other
scholarship have identified the elements of an effective personnel management
system. While personnel management is a large and complex area of study, we
identified six components of personnel management as particularly important to
our assessment of NSF’s rotator model. First, these criteria form a basis to make
a comparison between NSF’s management of permanent and non-permanent
staff. Second, these elements distinguish between the components of an
                                       7
agency-wide personnel management system and the components of such a
system at an individual staff level. When presented with these elements, NSF
officials agreed that they were an appropriate basis for making a comparison
between NSF’s management of permanent and non-permanent staff.

The components we identified were: performance management, recruitment,
human capital and workforce planning, leadership succession management/
knowledge transfer, continuous learning, and employee integrity. A description
of each follows.

Performance Management

OPM requirements and other scholarship describe performance management as
the formal process of planning work and setting expectations, continually
monitoring performance, developing performance capacity, periodically rating
performance, and rewarding good performance. Performance management is a
key component of effective personnel management because it is the process for
ensuring that staff understand what is expected of them, and holds them
accountable for their performance. We focused on performance management
because ensuring that all staff, including executives, are working towards
common goals is critical to accomplishing the organization’s mission.
Additionally, we focused on performance management because IPAs fill key
executive and management positions at NSF.

Recruitment

Recruitment is the process of attracting, screening, and selecting qualified people
for a position. Federal law imposes several requirements for the recruitment of
federal jobs, including that employee selection and advancement must be based
on relative ability, knowledge and skills, and fair and open competition. In
addition, OPM requires that employees in the Senior Executive Service meet five
core qualifications and that these qualifications are certified by a Qualifications
Review Board 8 before individuals are appointed to the Senior Executive Service.
Ensuring that potential employees possess the qualifications and skills needed to
perform the job is critical to both the employee’s and the organization’s success.
However, although many are serving in executive positions, OPM does not
require IPAs to have their executive qualifications certified by a review board.
Therefore, we focused on NSF’s recruitment activities related to ensuring that
potential executives possess the qualifications and skills needed to perform the
job.

Human Capital Management and Workforce Planning

Strategic human capital management seeks to place the right people in the right
jobs to most effectively perform the work of the organization. To this end, federal
regulations require that agencies maintain a current human capital plan and
report annually on human capital management to OPM. Human capital
8
  Qualifications Review Boards are OPM-administered independent boards of senior executives
that assess the executive core qualifications of SES candidates.
                                             8
management also includes an analysis of an agency’s workforce. We included
human capital and workforce planning to see how NSF incorporates rotators and
whether positions are appropriately identified as reserved for career employees
or designated for IPAs as part of the agency’s workforce planning effort.

Leadership Succession Management/Knowledge Transfer

Generally, leadership succession management refers to a plan to address
succession of current workers as they leave the workforce due to retirement and
other factors. OPM states that agencies should ensure continuity of leadership
through succession planning and executive development programs. Within this
component is the recommendation that organizations ensure that knowledge is
transferred from old to new leadership. We included knowledge transfer because
NSF relies on IPAs from outside the federal government to fill many of its
executive leadership positions, a fact which ensures substantial turnover in the
executive ranks. In addition, the temporary nature of NSF’s rotator model
creates additional challenges in ensuring that new executives have the
knowledge necessary to lead the agency.

Continuous Learning

NSF’s March 2008 Human Capital Strategic Plan describes continuous learning
as a component of effective personnel management that results in better
performance, advancement, and/or enhanced capacity. We focused on the
adequacy of NSF’s efforts to provide two specific elements of continuous
learning.    These elements were the annual security awareness training
mandated by federal law for all federal employees, and training that OPM
requires managers and supervisors to complete within one year of their
appointment to a federal job, and periodically thereafter. We selected these two
elements because they are federal requirements that rotators may not be
required to fulfill in the academic environment.

Employee Integrity

According to OPM, employee integrity includes ensuring that leaders maintain
high standards of honesty and ethics. To this end, federal law requires all
employees to complete annual ethics training. NSF also requires senior
employees to file annual financial disclosure reports to identify potential conflicts
of interest. In addition, OPM requires that employees complete introductory and
on- going training on antidiscrimination and whistleblower protection laws as part
of the Notification and Federal Employee Antidiscrimination and Retaliation Act
(No FEAR Act).

Ensuring employee integrity is particularly important at NSF because of the
nature of its mission to promote the progress of science. Many IPAs serve in
leadership positions at NSF and make recommendations and decisions about
which individuals and organizations will receive funding. This situation can
create potential for conflicts of interest because many rotators come from and


                                         9
return to academic organizations with research programs that receive funding
from NSF.

We assessed each of these elements to determine whether NSF had the
components of an effective personnel management system.

NSF Generally has the Components of an Effective
Personnel Management System

Based on our limited assessment, we found that NSF generally has the
components of an effective personnel management system and followed OPM
and government-wide requirements. Nothing came to our attention to indicate
that NSF’s personnel management system was ineffective. With the exception of
performance management, NSF applied the components of effective personnel
management to both its permanent and temporary staff and IPAs in the same
manner.

In recruiting, NSF seeks SES managerial and leadership qualifications and
competencies in its executive-level staff regardless of appointment type.
Application materials for executive-level positions clearly stated that managerial
and leadership knowledge and experience was a requirement. 9

NSF’s Human Capital Strategic Plan and other human capital initiatives evidence
NSF’s human capital and workforce planning. NSF has stated that it is
committed to becoming a model for human capital management in the federal
government and has developed human capital initiatives to address the
challenges of the rotating director model.

In the area of leadership succession/knowledge transfer, NSF has attempted to
ensure institutional continuity and awareness of internal policies and procedures
through leadership change by informally “pairing” executive-level IPAs with
permanent staff. Most recently, it sought to improve overall knowledge and
succession management through its New Executive Transition (NExT) program,
intended to quickly and effectively integrate new executives.

For continuous learning, NSF provided records showing that all employees in our
sample, regardless of appointment type, completed annual computer security
awareness training, as required by federal law. NSF also provided a draft
comprehensive training plan for executive leaders, supervisors, and managers to
comply with OPM’s recently released final rules requiring managers and
supervisors to receive management training within one year of their appointment.

Regarding employee integrity, NSF requires both its permanent and non-
permanent staff to complete annual ethics and No FEAR Act training. It also
9
 According to NSF, the qualifications of all executive-level selectees are reviewed by the Division
of Human Resources Management office and reviewed and approved by NSF’s Deputy Director
prior to appointment.

                                                10
requires appropriate employees, including non-permanent staff, to complete
annual financial disclosures. NSF recently hired an executive-level director for its
Office of Equal Opportunity Programs and has made equal employment
opportunity (EEO) training available to all employees. NSF stated that, as of
January 2010, over 200 senior managers have attended this EEO and diversity
training.

Although NSF’s personnel management system is generally effective, as noted, it
does not include IPAs in the performance management process.


NSF Does Not Include Rotating Executives in its
Performance Management System
Unlike its career and temporary federal employees at the executive level, NSF
does not include IPAs in its performance management system, even though IPAs
function in the same capacity as those executives. Specifically, NSF does not
require IPAs to have written performance plans, progress reports, or
performance appraisals, as it does for permanent, career and temporary
executives. Nonetheless, NSF expects its executives to provide strategic
direction, make investment and funding decisions, oversee and monitor grant-
making processes, as well as supervise and manage scientific and administrative
staff. These expectations are the same regardless of whether the person
performing those functions is a career or temporary employee or an IPA.

Elements of an Effective Performance Management System

Because the agency has the same performance expectations for IPA executives
as it does for other executives, we assessed how NSF applies the elements of an
effective performance management system for a limited sample of permanent
and temporary employees and IPAs. The elements of an effective performance
management system include documented performance plans, progress reports,
and performance appraisals. We also looked at position descriptions for different
appointment types as they can aid in an effective performance management
system by establishing initial expectations.

We found that NSF provides permanent and temporary employees with position
descriptions that describe their roles and responsibilities. For IPAs, this
description is included in the IPA agreement between the agency and the home
institution. Position descriptions for permanent and temporary employees
contained more detail than those for IPAs. Since position descriptions are
important tools for setting expectations, NSF may benefit from including a more
detailed explanation of leadership expectations in IPA agreements. For example,
the position description for a temporary Division Director specifically defined
providing “leadership” as “ensuring communication, motivating staff and
promoting team spirit,” while the IPA agreement listed providing “leadership” as a
qualification but did elaborate on what this meant.


                                        11
The next step in an effective performance management system is establishing
performance plans against which performance can be measured. The critical
elements established in performance plans provide the basis for holding staff
accountable for work assignments and responsibilities. In accordance with OPM
requirements, NSF provides written performance plans to its permanent and
temporary employees. OPM does not require IPAs to have performance plans
and NSF does not typically provide them. As a result, the agency does not have
documented standards for evaluating IPA’s performance or for holding them
accountable.

Progress reports and performance appraisals are the final step in an effective
performance management system. While NSF does not require performance
appraisals of IPAs, there was widespread internal support for providing them to
IPAs. Each of the seven directorates and four science offices informed us that
they verbally communicate performance expectations to IPAs, as well as discuss
with IPAs their performance against those expectations, but they were not able to
provide us with a written record of this communication.

Further, to put NSF’s management of its IPAs in perspective, we examined how
five other agencies handled performance management for IPAs. Two of the five
include IPAs in their performance management process in some manner. For
example, EPA requires that IPAs and their supervisors complete a written
evaluation at the end of the rotational assignment which the agency keeps on
file.

NSF’s Division of Human Resource Management (HRM) recommended that the
agency require annual performance assessments of IPAs and, to this end,
provided senior management with a draft proposal in May 2005. It also proposed
developing performance standards for executive-level IPAs and ensuring that
new IPA agreements include performance standards. Also, the proposal
recommended that supervisors of IPAs understand their responsibility to conduct
annual appraisals with IPAs. This proposal also cited several potential benefits
of conducting performance appraisals of IPAs. For example, it stated that
appraisals would “provide valuable feedback for IPA participants and serve as a
communication tool between NSF and IPA participants.” NSF had not adopted
these internal recommendations at the time of our audit.

In addition to the benefits noted in HRM’s recommendation, including IPAs in
NSF’s performance management process could have other benefits for NSF’s
workplace environment. Because of its reliance on IPAs at the executive level,
NSF needs to hold IPAs accountable for improving the agency’s effectiveness in
the accomplishment of agency mission and goals. At the time of our audit, six of
the eleven Assistant/Science Office Directors were IPAs. Therefore, the potential
impact on the workplace environment as a result of having performance
appraisals for IPAs could be heightened.

As NSF does not have a written record of an IPA’s performance, poor
performance is not documented. Because IPAs may return to NSF in another
capacity, such as a permanent employee, having a documented performance

                                       12
evaluation could assist NSF in hiring decisions. Also, IPAs evaluate the
performance of federal employees, yet those IPAs conducting the appraisals do
not receive an evaluation. This difference could result in a perception of unfair
treatment. Further, IPAs may have a greater commitment to their supervisory
responsibilities if NSF documented its expectations and rated IPAs on how well
they met those expectations.

Rotating Executives Generally Do Not Have a Working
Knowledge of Federal Government Culture and
Management Processes

NSF’s rotating director model is important in bringing the agency experience in
cutting edge science and fresh ideas in organizational approach. IPAs generally
have not worked in the federal government and therefore, are often not familiar
with government rules and administrative processes in the federal workplace.

Both rotators and permanent staff stated that training for rotators should include
explaining the government culture and work environment. During our interviews,
rotating directors noted several areas where they believed that training and
orientation about federal government culture and management processes would
have been beneficial for them. For example, one rotating Division Director stated
that he did not know that one of his responsibilities was to conduct employees’
mid-term reviews. He learned about this process on-the-job because NSF does
not offer training delineating that performance reviews must be done or how to do
them. Another rotating director stated that frequently rotators came to NSF as
“little entrepreneurs” and did not receive orientation to educate them about how
government processes may differ from other work environments. Each of the
rotating directors cited the importance of having a permanent staff person who
assisted them in understanding NSF’s culture and processes. To this end, NSF
attempts to pair a non-permanent executive with an experienced career
executive, which contributes to the new executive’s transitioning.

In addition to these areas, our interviews also demonstrated the need for training
to address rotators’ lack of familiarity with government processes such as
approving leave and travel, the budget process, and monitoring time and
attendance. Rotators also stressed the importance of having such training as
soon as they assume their positions at NSF.

Based on these concerns, effectively preparing its rotating executives for the
federal government workplace could address some of NSF’s long-standing
workplace issues. Existing training requirements for career employee
development may not be sufficient for preparing IPAs to perform federal
government processes within the federal government culture. NSF does
periodically offer training on some of its management and administrative process
that is available to all employees. However, new executives are not required to
take this training.


                                       13
NSF has recognized this need and is developing the NExT program specifically
to address some of the challenges associated with the rotational director model.
The primary purpose of this program is to effectively integrate new executive staff
into the agency. Future components include checklists, training, and other
resources expected to help new executives more quickly recognize and perform
their major roles and responsibilities.

At the time of our audit, NSF had implemented one component of the NExT
program, the Executive Resources Website. The website is an interactive
handbook for new executives that contains human resource and leadership
information, including information regarding performance management,
recruitment, and equal opportunity and diversity. The agency is collecting usage
statistics and comments about this website.

In addition, NSF has ongoing pilot programs that include knowledge
management and leadership training, such as leadership and problem-solving
skills training and performance management workshops. The agency plans to
launch other NeXT program components, including executive coaching, within
the next few months. As NSF is still developing these components of the
program, we have not attempted to determine their effectiveness. Because a
substantial number of NSF new executives are IPAs coming from outside of the
federal government, NSF should ensure that the training intended to integrate
new executives into the agency contains enough information to orient IPAs with
unfamiliar management processes.

Recommendations
NSF recognizes the challenges to effective personnel management involved in
having a rotating workforce and is committed to improving its human capital
management. We recommend that the NSF Director:

   1.   Create and document a performance management process appropriate
        for IPAs. Such a process does not have to be the same as the process for
        federal employees but should include:
            o establishing a formal performance assessment policy and practice
               that requires annual performance assessments for IPAs and some
               form of documentation that the assessments occurred;
            o developing IPA performance standards for both program-level and
               executive-level IPAs;
            o ensuring that each new IPA agreement includes an attached set of
               performance standards;
            o ensuring that supervisors of IPAs understand their responsibility to
               conduct annual appraisal discussions with all IPA assignees; and
            o ensuring that each new IPA agreement contains sufficient detail to
               convey expectations of the position.

   2.   Ensure that NSF continues its efforts to implement an appropriate process
        for integrating new executives into the agency sufficient to orient IPAs with
        unfamiliar management processes.
                                         14
Agency Response

NSF agreed with our recommendations and in its response, indicated that it has
already taken steps towards developing and implementing a performance
management process for all IPAs similar to that for federal employees.

We have included NSF's response to this report in its entirety as Appendix A.


OIG Contact and Staff Acknowledgements

Karen Scott - Senior Audit Manager
(703) 292-7966 or kscott@nsf.gov

In addition to Ms. Scott, Susan Carnohan, Kelly Stefanko, and Gina Zdanowicz
made key contributions to this report.




                                       15
Appendix A: Agency Response




                       16
Appendix B: Objective, Scope, and Methodology

The Senate Committee Report accompanying NSF’s 2010 appropriations bill
requested that the OIG provide a report assessing NSF’s rotating director model.
The objective of this audit was to determine if NSF has a rotator model in place
that ensures effective personnel-management performance and oversight at its
executive level. In making this determination, we obtained listings of staff in each
of NSF’s directorates, and the Offices of Polar Programs, Cyberinfrastructure,
and International Science and Engineering as of September 11, 2009, to identify
NSF’s workforce structure at a particular point in time. Additionally, we obtained
staff listings for NSF’s Office of Integrative Activities and the non-science offices
as of October 23, 2009. We focused our audit efforts on NSF’s executive-level
staff, not only because of their critical and broad affect on the organization in
setting strategy, managing, and providing leadership, but also because a
significant number of NSF executives are not permanent staff.

Personnel management and the use of rotators at NSF has been the subject of
several prior reports and studies, both internal and external to NSF. We
reviewed these reports to obtain insights pertinent to our audit objective. (See
Appendix D for a description of these reports.) We also researched and
reviewed federal laws and regulations, and NSF policies and procedures
addressing personnel management.

To establish a framework for assessing NSF’s personnel management system,
we reviewed relevant scholarship that identified the components of an effective
personnel management system, with particular focus on elements that directly
affect individuals. This scholarship included guidance from the Office of
Personnel Management, the Government Accountability Office, and human
resource professional associations. (See Appendix E for a description of the
scholarship.)    We ultimately limited our definition of effective personnel
management to encompassing six elements: employee integrity, recruitment,
performance management, continuous learning, leadership succession
management/knowledge transfer, and human capital and workforce planning.
We discussed these components with NSF officials, and obtained their
concurrence that these were reasonable criteria for our use in comparing how
NSF’s managed its permanent and non-permanent staff.

Within our defined framework, we assessed the extent to which NSF
incorporated these elements into its personnel management processes. We
reviewed relevant NSF policies and procedures and interviewed permanent and
rotating NSF personnel, as well as Division of Human Resource Management
officials and staff, to gain a variety of perspectives on the role, challenges and
satisfaction of NSF’s workforce structure. We also selected a small judgmental
sample of permanent and non-permanent executives from our listing of
Assistant/Science Office Directors, Deputy Assistant Directors/Executive
Officers, Division Directors, and Deputy Division Directors/Executive Officers.
For these executives, we reviewed files and documents related to their
                                          17
recruitment, performance, and training, and compared the documents to
determine, on a limited basis, the extent to which NSF incorporated the elements
into its processes, and the general effectiveness of its personnel management
system. Finally, we identified five other federal agencies that use IPAs and
obtained information on the roles of IPAs at those agencies.

We conducted this performance audit between September 2009 and March
2010, in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on
our audit objective.




                                      18
Appendix C: Illustration of NSF’s Executive-Level
            Science Workforce




Directorates, OPP, OCI, and OISE data as of 9/11/09, non-science offices and OIA data as of 10/23/09.




                                                   19
Appendix D: Assessments of NSF’s Use of Rotators
NSF’s Action Plan on “NSF Employee Satisfaction and Wellness
Initiatives,” September 2009

NSF employees are asked to assess the Foundation’s human capital
management on a bi-annual basis via the Federal Human Capital Survey, which
has been administered government-wide since 2002. OPM has used the results
of the 2006 and 2008 surveys to provide agencies with feedback about employee
perceptions regarding its human capital initiatives. In response to memoranda
from OPM, NSF provided an overview of its action plan and targets for improving
employee satisfaction and employee wellness, which was also included in its FY
2011 budget submission to Office of Management and Budget (OMB). NSF
stated that effective implementation of the action plan would be a critical step in
achieving its goals of being a model federal agency for human capital
management. NSF stated that establishing clear expectations for rotators in
fulfilling their responsibilities as managers, as well as providing training to help
ensure their effectiveness in their roles would be a critical consideration in the
overall management training program that it plans to provide.

Senior Executive Leadership at the National Science Foundation: Investing
in our Future, A Report to the Chief Operating Officer, May 15, 2007

The NSF Executive Resources Board (ERB) is a representative group of senior
executives established by the Director for the development and administration of
a systematic program for managing the Foundation’s executive resources.
Specifically, it is responsible for developing and recommending policy and
formulas regarding SES performance management, pay, bonuses and awards
for NSF executives. In 2007, the ERB studied NSF’s executive leadership and
recommended that the science directorates identify back-up senior leaders,
conduct succession planning and training, and complete development of a
comprehensive executive orientation program.

Proposal for IPA Performance Assessment Process, May 2005

In May 2005, NSF’s Division of Human Resources Management provided senior
management a draft proposal recommending that the agency annually assess
IPA performance. Specifically, it called for a performance management process
to include (1) establishing a formal performance assessment policy and practice
that requires annual performance assessments for IPAs, (2) developing IPA
performance standards for both program level and executive level IPAs, (3)
ensuring that each new IPA agreement includes an attached set of performance
standards, and (4) ensuring that supervisors of IPAs understand their
responsibility to conduct annual appraisal discussions with all IPA assignees.
This proposal cited several potential benefits of conducting performance
appraisals of IPAs. NSF had not adopted these internal recommendations at the
time of our audit.

                                        20
NSF Use of the Intergovernmental Personnel Act, August 2004

In the conference report accompanying the 2004 Consolidated Appropriations
Act (Public Law 108-199), Congress requested that the U.S. Office of Personnel
Management conduct a review of NSF policies and practices regarding its use of
rotators. Specifically, the conferees requested that OPM focus on areas
including the percentage of the NSF professional workforce staffed through
temporary appointment, and the use of temporary appointments to staff the most
senior positions at NSF. Among other things, OPM expressed concerns about
the impact of rotators on continuity of leadership and on the balance between
IPAs and career employees.

National Science Foundation: Governance and Management for the Future,
April 2004

The Report from the Committee on Appropriations accompanying NSF’s FY 2003
House appropriations bill (H.R. 5605) called for an independent study of NSF to
address four organizational and management issues, one of which being using
rotators in key positions, relevant to NSF’s projected growth. The National
Academy of Public Administration (NAPA), who performed the study, reported
that NSF faces operational challenges in using rotators in key positions but
recommended that NSF continue to use rotators in the positions of program
officers, managers, and assistant directors. The report suggested that NSF
balance the number of rotators and permanent employees based on its
experience and the specific requirements of individual positions and
recommended that NSF establish and support an ongoing management and
executive level knowledge-sharing program to ensure that key NSF permanent
employees and rotators are current in their knowledge of contemporary
management tools as well as the evolving cultures of NSF and the research
community.




                                      21
Appendix E: Personnel Management Scholarship

Human Capital Forum – Principles, Criteria, and Processes for
Governmentwide Federal Human Capital Reform, 2004

In April 2004, the Government Accountability Office (GAO) hosted a forum with
the National Commission on the Public Service Implementation Initiative to
discuss developing a government wide framework for human capital reform. The
participants in the forum developed principles, criteria, and processes which
ultimately served as a starting point for this framework.

Title 5 Code of Federal Regulations

The Code of Federal Regulations (CFR) is an annual codification of the general
and permanent rules published in the Federal Register by the executive
departments and agencies of the federal government. Title 5 – Administrative
Personnel, Part 250 – Personnel Management in Agencies are the federal
government’s requirements for human resources management practices. These
require the agency to maintain a current human capital plan, provide OPM an
annual Human Capital Management Report, and conduct an annual survey of its
employees (the results of which must be available to the public and posted on its
web site).

Additionally, Title 5 CFR mandates government-wide training in the areas of (1)
computer security awareness (Title 5 CFR §930.301-305), (2) ethics (Title 5 CFR
§2638.703 and 704), and (3) executives, managerial, and supervisory
development (Title 5 CFR Part 412).

OPM Final Rules on Training; Supervisory, Management, and Executive
Development, 2009

In December 2009, OPM released 5 CFR Parts 410 and 412 to “implement
certain training and development requirements contained in the Federal
Workforce Flexibility Act of 2004 and to make other revisions in OPM
regulations. The Act makes several significant changes in the law governing the
training and development of Federal employees, supervisors, managers, and
executives.”

5 USC Chapter 43 Subchapter II – Performance Appraisal in the Senior
Executive Service

Chapter 43 of title 5, United States Code, provides for performance management
for the Senior Executive Service (SES), the establishment of SES performance
appraisal systems, and appraisal of senior executive performance. 5 USC
Chapter 43 also establishes criteria for the SES performance appraisal system.



                                       22
Human Capital Assessment and Accountability Framework

As the government wide leader for strategic human capital management, OPM is
responsible for and has set a framework for a set of systems, including standards
and metrics, for assessing the management of human capital by federal agencies
-- the Human Capital Assessment and Accountability Framework (HCAAF). The
HCAAF evolved from a set of Human Capital standards, issued by OPM in 2002,
which were developed through a collaborative effort among OPM, OMB, and
GAO.

The HCAAF Practitioners' Guide contains 6 sections, each of which is comprised
of various critical success factors, which are broken down into key elements for
which suggested performance indicators are provided. The Guide serves as the
basis for agency strategic human capital management accountability systems
that meet OPM requirements.

Introduction to the Position Classification Standards, 2009

OPM’s Introduction to the Position Classification Standards, most recently
revised in August 2009, provides “background information and guidance
regarding the classification standards for General Schedule work. It describes
the fundamental policies which Federal managers, supervisors, and personnel
specialists need to understand in using classification standards to determine the
series, titles, and grades of positions.” The Introduction sets forth basic
principles and policies regarding position classification, including the use of
position descriptions.

Guide to Senior Executive Service Qualifications, 2006 and Senior
Executive Service Recruitment and Selection

In 2006, OPM completed a review of the Executive Core Qualifications (ECQs)
and updated the Guide to the Senior Executive Service Qualifications. The
changes included development of fundamental competencies, revisions to ECQ-
specific competencies, a modified definition of each ECQ, and removal of the key
characteristics. “In addition to helping applicants, the Guide will be useful to
individuals charged with reviewing executive qualifications, including agency
personnel and executive development specialists and members of agency
Executive Resources Boards.” Additionally, OPM’s website provides for
information about recruitment and selection in the Senior Executive Service,
including information about merit staffing and hiring options.

No Fear Act

Based on its belief that that federal agencies cannot be run effectively if they
practice or tolerate discrimination, Congress established the ‘‘Notification and
Federal Employee Antidiscrimination and Retaliation Act of 2002” (No Fear Act).
The No Fear Act requires that federal agencies be accountable for violations of
antidiscrimination and whistleblower protection laws. Additionally, it requires that
each federal agency post certain statistical data relating to federal sector equal

                                        23
employment opportunity complaints filed with such agency quarterly on its public
web site. NSF mandates No Fear Act training for its federal employees and
IPAs.




                                      24
